No. 19A_____
19A
IIN
N THE
THE

'upreme
Court of
of the
Supreme Court
the liniteb
United iptate
States
C
LYDE S. B
OVAT,
CLYDE
BOVAT,
Applicant,
v.
STATE
STATE OF VERMONT,
VERMONT,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME TO FILE A
PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF VERMONT

SAMANTHA
LEDNICKY
SAMANTHA V. L
EDNICKY
MURDOCH HUGHES
HUGHES
MURDOCH
TWAROG TARNELLI
TARNELLI
TWAROG
ATTORNEYS AT L
AW, P.C.
ATTORNEYS
LAW,
131 Main Street
P.O. Box 363
Burlington, VT 05403
(802) 864-9811
slednicky@mhttpc.com

NEAL KUMAR
KUMAR KATYAL
KATYAL
NEAL
Counsel of Record
HOGAN LOVELLS
LOVELLS US LLP
HOGAN
555 Thirteenth Street, NW
Washington, DC 20004
(202) 637-5600
neal.katyal@hoganlovells.com

Counsel for Applicant
February 26, 2020

APPLICATION
To the Honorable Ruth Bader Ginsburg, Associate Justice of the Supreme
Court of the United States and Circuit Justice for Vermont:
Pursuant to Rules 13.5 and 13.1 of the Rules of this Court and 28 U.S.C.
§ 2101(d), applicant Clyde Bovat respectfully request a 60-day extension of time, to
and including May 18, 2020, within which to file a petition for a writ of certiorari to
review the judgment of the Supreme Court of Vermont in this case.
1.
1.

The Supreme Court of Vermont issued its original decision on Novem-

ber 8, 2019. See Vermont v. Bovat, 2019 VT 81 (Appendix A). Applicant timely
sought reargument, which the Supreme Court of Vermont denied on December 19,
2019 (Appendix B).
2.
2.

Unless extended, the time to file a petition for certiorari will expire on

March 18, 2020. See Sup. Ct. R. 13.1. This application is being filed more than ten
days before a petition is currently due. See Sup. Ct. R. 13.5. The jurisdiction of this
Court would be invoked under 28 U.S.C. § 1257(a).
3.
3.

In 2017, police officers went to Bovat's
Bovat’s home to investigate an alleged

Bovat’s residence using the
violation of Vermont hunting law. They approached Bovat's
driveway, which proceeds a short way before splitting: To the left is a small parking area, and immediately behind it, a garage. To the right is a walkway that leads
to the house. The officers proceeded towards the garage and peered inside an eightto-twelve inch window. They observed a truck, parked facing away from the window; the license plate number; and what appeared to be animal hair and blood on
1
1

the top of the closed rear tailgate. Relying in part on this observation, the officers
obtained a search warrant to seize the truck. Based on the evidence obtained using
Vermont’s big-gamethat warrant, officers charged Bovat with several violations of Vermont's
hunting laws.
4.
4.

Bovat moved to suppress this evidence, arguing it was obtained in vio-

lation of the Fourth Amendment. The district court denied the motion, and the Supreme Court of Vermont affirmed 3-2 over a dissent by Chief Justice Reiber and
Justice Robinson. App. 1a-21a.
la-21a. The majority held that the garage was within the
Bovat’s home and was therefore "protected
“protected from warrantless governcurtilage of Bovat's
ment intrusions,"
intrusions,” but it nevertheless concluded that the officers had "a
“a right to"
to” enBovat’s driveway, which the panel classified as a "semiprivate"
“semiprivate” area. App 4a,
ter Bovat's
7a. In the majority’s
majority's view, because the officers could see the evidence in plain view
“through the window of the garage from a place [they] had a right to be,”
“did
"through
be," they "did
not violate [Bovat’s]
rights.” App. 7a.
[Bovat's] Fourth Amendment rights."
5.
5.

Chief Justice Reiber dissented, joined by Justice Robinson. As they

explained, the curtilage, like the home that it surrounds, enjoys the highest level of
Fourth Amendment protection. Thus, just as an object observed from within the
home is not subject to the plain-view exception unless the officer had a lawful reason to enter the home, an object observed from within the curtilage is not subject to
the plain-view exception unless the officers had a lawful reason to intrude to that
point in the curtilage. App 10a-11a, 13a (Reiber, C.J., dissenting). Although the
knock-and-talk exception—which the majority implicitly relied on to reach its hold2

“to carry out leing—provides a somewhat expanded license to enter the curtilage "to
business,” it is black-letter Fourth Amendment law that the officers
gitimate police business,"
“must 'restrict
‘restrict their movements to places visitors could be expected to go.’
"must
go.' "” App 7a,
1 Wayne R. LaFave, Search and Seizure: A Treatise on the Fourth
13a (quoting 1
Amendment § 2.3(f), at 782–784
782-784 (5th ed. 2012)). The officers exceeded the scope of
that license, the dissent explained, because to see Bovat’s
Bovat's truck, the officers had to
Bovat’s curtilage, deviate from the normal access route a visitor would follow
enter Bovat's
to get to the house, approach a small garage window, and peer inside. That was an
unreasonable invasion of the privacy an individual would expect to have in a portion of the curtilage not readily accessible to the public.
6.
6.

Vermont’s decision warrants this Court’s
The Supreme Court of Vermont's
Court's re-

view. This case involves a question of substantial importance about the scope of
and interaction between the plain-view doctrine and the knock-and-talk exception.
The question presented in Bovat’s
Bovat's petition will have a significant effect on an officer’s ability to intrude on the area immediately surrounding an individual's
individual’s home,
ficer's
the core harm against which the Fourth Amendment protects. See, e.g., Florida v.
Jardines, 569 U.S. 1, 6 (2013) ("[W]hen
(“[W]hen it comes to the Fourth Amendment, the
equals.”); Kyllo v. United States, 533 U.S. 27, 31 (2001) ("At
(“ ‘At the
home is first among equals.");
core’ of the Fourth Amendment 'stands
‘stands the right of a man to retreat into his
very core'
intrusion.’ ” (quoting
own home and there be free from unreasonable government intrusion.'"
Silverman v. United States, 365 U.S. 505, 511 (1961)). An extension of time will
help ensure that the petition effectively presents this important issue.

3

7.
7.

Good cause exists for an extension. The applicant has recently re-

tained additional counsel to file a petition for certiorari. Over the next several
weeks, counsel is occupied with briefing deadlines and arguments for a variety of
matters, including: (1) an opening brief on the merits in Ford v. Bandemer, No. 19369, consolidated with Ford v. Montana Eighth Judicial District, No. 19-368 (U.S.),
due March 2; (2) a petition for certiorari in Enigma Software Group v. Malwarebytes, Inc., No. 17-17351 (9th Cir.), due March 30; (3) a reply brief in support of certiorari in Credit Bureau Center, LLC v. Federal Trade Commission, No. 19-914
(U.S.), due April 6; and (4) a reply brief on the merits in Bandemer and Montana
Eighth Judicial District due approximately April 17. Applicant requests this extension of time to permit counsel to research the relevant legal and factual issues and
to prepare a petition that fully addresses the important questions raised by the proceedings below.
8.
8.

For these reasons, Applicant respectfully requests that an order be en-

tered extending the time to file a petition for certiorari to and including May 18,
2020.

4

Respectfully submitted,

nal Mazip-e /N6
SAMANTHA V. LEDNICKY
MURDOCH HUGHES
TWAROG TARNELLI
ATTORNEYS AT LAW, P.C.
131 Main Street
P.O. Box 363
Burlington, VT 05403
(802) 864-9811
slednicky@mhttpc.corn

NEAL KUMAR KATYAL
Counsel of Record
HOGAN LOVELLS US LLP
555 Thirteenth Street, NW
Washington, DC 20004
(202) 637-5600
neal.katyal@hoganlovells.corn

Counsel for Applicant
February 26, 2020

